U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

November 24, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Stephon Williams v. United States, No. 20-5304
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 3,
2020. The government’s response is now due, after two extensions, on December 9, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including January 8, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-5304
WILLIAMS, STEPHON
USA

SYDNEY R. STRICKLAND
STRICKLAND WEBSTER, LLC
830 GLENWOOD AVE SE
STE. 510-203
ATLANTA, GA 30316

